ENDX %
Afpe.r'di)C A: Decis'vovN 0f lo+h Cir.
A'ppewi'vy.

8 *.3 eel si

Appev^VjC

C-l Period of Re.Vwrirg by
\0fW Car.

0W

"CuS-fritf Co^-rf

A?fev%<A/. D-Order tAev\V'\v\3 ^cn*i
Ve^o^+ Te^i\es+ V>Y vy\£
A^rdiyL £:Order <*r«vs+'i*ii M<vrUr’S
r^uest of special 'fef©r+
Af p€,v\did- f”« Order <dery\v\^ def<*rHr
av\d Corf e,S£L®r of
^cyd?>vre.rf vncftors

/i

» .

*,

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

March 20, 2020
Christopher M. Wolpert
Clerk of Court

DEXTER LEEMON JOHNSON,
Plaintiff - Appellant,

No. 19-7023
(D.C. No. 6:16-CV-00440-JHP-SPS)
(E.D. Okla.)

v.
JOHN MARLAR,
Defendant - Appellee.

ORDER AND JUDGMENT*
Before LUCERO, PHILLIPS, and EID, Circuit Judges.
Plaintiff-Appellant Dexter Johnson is incarcerated in the Oklahoma State
Penitentiary (“OSP”) serving a 150-year sentence for shooting with intent to kill. He
appeals from the district court’s order granting summary judgment in favor of
Defendant-Appellee John Marlar on his claim under 42 U.S.C. § 1983 for violation of
his Eighth Amendment rights. According to Johnson, Marlar acted with deliberate
indifference to his serious medical needs by failing to treat his hemorrhoids in an

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

u

ix. A

ij'

I

effective and timely manner, ultimately resulting in an emergency room visit for
anemia. Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
L
We only summarize the medical record, which is thoroughly described in the
district court’s opinion and order. Between October 2012 (when Johnson first
submitted a Request for Health Services (“RHS”) to deal with bleeding) and February
2017 (when Johnson received a hemorrhoidectomy), Johnson received over 30
instances of medical treatment related to his hemorrhoids alone. ROA Vol. I at 139.
In total, during this period, medical personnel interacted with Johnson over 50
times—including examinations, treatments, scheduling for future appointments, and
responding to his administrative requests. Id. at 129-34. During the medical
consultations that occurred within OSP, Marlar generally served as the signing
provider.
On appeal, Johnson raises four claims: (1) the district court failed to consider his
responses to Marlar’s Motion for Summary Judgment and therefore erred in its ruling; (2)
the district court’s denial of his Motion for an Evidentiary Hearing constituted an abuse
of discretion; (3) the district court’s denial of his Motion for Default Judgment was also

i

At the district court, Marlar filed a Motion to file attachments containing
private health information to the Oklahoma Department of Corrections’ (“ODOC”)
Special Report under seal out of an abundance of caution and respect for Johnson’s
privacy. The district court granted this Motion. To that end, we do not cite to, or
quote, anything here that is not already: contained in (1) the district court’s Opinion
and Order; (2) the unsealed Volume 1 of the Record on Appeal; (3) or previously
quoted by Johnson in his unsealed appellate briefing.
2

an abuse of discretion; and (4) that opposing counsel committed fraud upon the court.
We address each claim in turn.
II.
“We review a district court’s grant of summary judgment de novo, using the same
standard applied by the district court pursuant to Fed. R. Civ. P. 56(a).” Cillo v. City of
Greenwood Vill., 739 F.3d 451, 461 (10th Cir. 2013) (citations omitted). Namely,
“[sjummary judgment is appropriate only if the movant shows that there is no genuine
issue as to any material fact and the movant is entitled to judgment as a matter of law.”
Tolan v. Cotton, 572 U.S. 650, 656-57 (2014) (per curiam) (internal quotation marks
omitted). “[W]e look at the factual record and the reasonable inferences to be drawn
from the record in the light most favorable to the non-moving party.” Self v. Crum, 439
F.3d 1227, 1230 (10th Cir. 2006) (citation omitted).
The district court granted summary judgment to Marlar on three grounds: first,
Johnson did not satisfy the exhaustion requirements under the Prison Litigation Reform
Act (“PLRA”) on his request for treatment by a hematologist, nor did he provide enough
evidence to establish his § 1983 deliberate indifference claim. ROA Vol. I at 137-41.
Additionally, the district court found that Marlar, in his capacity as OSP physician, was
entitled to qualified immunity. Id. at 143.
We agree Johnson fails to address the exhaustion requirements under the PLRA,
and so he has waived those claims. In fact, in his response to Defendant’s Motion for
Summary Judgment, Johnson “concedes his failure to exhaust administrative remedies
regarding his request for treatment by a hematologist.” Id. at 111. He also concedes his
3

,

injunctive claim is moot as he has already received a hemorrhoidectomy. Id. Therefore,
we focus only on the merits of Johnson’s remaining § 1983 deliberate indifference claim;
his two procedural claims; and his allegation of fraud.
A. Deliberate Indifference Claim
“A prison official’s deliberate indifference to an inmate’s serious medical needs
violates the Eighth Amendment.” Sealockv. Colo., 218 F.3d 1205, 1209 (10th Cir. 2000)
(citing Estelle v. Gamble, 429 U.S. 97, 102 (1976)). Deliberate indifference “involves
both an objective and a subjective component. The objective component is met if the
deprivation is sufficiently serious.” Id. (internal quotation marks omitted). And the
“subjective component is met if a prison official knows of and disregards an excessive
risk to inmate health or safety.” Id. (internal quotation marks omitted). “A negligent
failure to provide adequate medical care, even one constituting medical malpractice, does
not give rise to a constitutional violation.” Perkins v. Kan. Dep’t of Corr., 165 F.3d 803,
811 (10th Cir. 1999). It is for this reason that we have “reiterated that the subjective
component presents a high evidentiary hurdle to the plaintiffs.” Self, 439 F.3d at 1232.
On appeal, Johnson argues that the district court failed to “consider” any of his
responses to Marlar’s Motion for Summary Judgment. Johnson contends this “deprived
[him] of the right... [to] establish the presence of multiple genuine disputes of material
facts.” Aplt. Br. at 7. Examining the record and the district court’s Opinion and Order
reveals that the district court gave proper weight to Johnson’s claims. We agree with the
district court that Johnson fails to establish deliberate indifference.

4

y .

As best we understand, Johnson’s deliberate indifference claim is that Marlar
violated his constitutional rights in providing him ineffective treatment. See id. at 8-9.
Under this theory, Johnson asserts he would not have suffered from severe anemia or
required an emergency room visit if he had received a timely hemorrhoidectomy. We
need not address the objective component of his claim, because his claim clearly fails on
the subjective component.
We agree with the district court that the evidence does not support an inference
that Marlar was deliberately indifferent to Johnson. Rather, our review of the record
shows that Marlar repeatedly responded to Johnson’s conditions with an array of
medications and treatment plans designed to address the ailments. To that end, Marlar
oversaw the provision of suppositories, stool softeners, ointments, and fiber for Johnson.
ROA Vol. I at 129-33. Medical staff administered blood tests, prescribed antibiotics,
disseminated medical snacks, and doubled meal portions to address Johnson’s conditions.
See, e.g., id. at 130-34.
The evidence indicates that Johnson was provided, rather than denied, medical
attention every time he sought treatment. While Johnson believes surgery should have
been immediately administered, an inference of deliberate indifference cannot be drawn
simply because he “disagrees with a diagnosis or a prescribed course of treatment.”
Perkins, 165 F.3d at 811. Marlar’s decision to refrain from immediately operating is

5

V .

indicative of a rational course of treatment2—attending to Johnson’s conditions with the
least invasive option before progressing to more extreme measures like surgery.3
Johnson also claims that all of Marlar’s treatment was ineffective. Nonetheless,
“[unsubstantiated allegations carry no probative weight in summary judgment
proceedings.” Self, 439 F.3d at 1230 (internal quotation marks omitted). And Johnson’s
assertion stands in conflict with the record. See, e.g., ROA Vol. I at 130 (noting that an
April 2015 periodic physical examination indicated that Johnson reported no physical
issues after years of medical treatment).

2 Neither do we believe this case reveals negligence. But even if Marlar was
negligent, “the subjective component is not satisfied, absent an extraordinary degree
of neglect, where a doctor merely exercises his considered medical judgment.” Self,
439 F.3d at 1232. When, as here, Marlar “order[ed] treatment consistent with the
symptoms presented and then continue[d] to monitor the [inmate’s] condition, an
inference of deliberate indifference is unwarranted under our case law.” Id. at 1232—
33.

3 Johnson’s claim also fails, for lack of causation, which is a necessary element
of a § 1983 deliberate indifference claim. See Daniels v. Gilbreath, 668 F.2d 477,
480 (10th Cir. 1982). Beyond October 20, 2012—when Johnson first complained
about bleeding—the record contains no facts supporting the inference that Marlar’s
actions caused Johnson’s January 2016 hospitalization for acute anemia. Dr. Yolette
Louis, Johnson’s treating physician at the hospital, noted in her report that his
hemorrhoids were “[ujnlikely to be the source of his severe anemia.” ROA Vol. I at 140.
In fact, Dr. Louis points to Johnson’s own admission that he has suffered from anemia
since he was a little boy as the likely cause for his emergency room visit. Id. The record
is devoid of any facts suggesting Marlar’s actions—or inaction—caused Johnson’s acute
anemia.
6

A ,

We agree with the district court that Johnson did not create a genuine issue of
material fact as to whether Marlar either knew about and failed to treat Johnson’s
conditions or otherwise consciously disregarded Johnson’s medical needs.4
B. Denial of Evidentiary Hearing
On appeal, Johnson makes two procedural arguments. First, he claims the district
court improperly denied his Motion for an Evidentiary Hearing. At the district court,
Johnson moved under Fed. R. Civ. P. 72(b)(2) for an evidentiary hearing and objection to
an order of the Magistrate Judge assigned to the case. ROA Vol. I at 4. On the same day,
the district court struck the motions, citing the Eastern District of Oklahoma’s Local Civil
Rule 7.1(b)(2). Id. Under this local rule, objections and motions cannot be combined
into a single pleading. Id.
We review a district court’s application of a local rule for abuse of discretion,
considering “(1) the degree of actual prejudice to the defendants]; (2) the amount of
interference with the judicial process; [and] (3) the culpability of the litigant.” Murray v.
Archambo, 132 F.3d 609, 611 (10th Cir. 1998) (alterations in original) (internal quotation
marks omitted).
Johnson argues that the application of Local Civil Rule 7.1(b)(2) conflicts with
Fed. R. Civ. P. 83(a)(2). Rule 83(a)(2) states that local rules imposing a requirement in

4 We need not decide whether Marlar is entitled to qualified immunity, an
alternative ground the district court ruled on, because we find that Johnson has not
established deliberate indifference.
7

w'

.

r
f

.

,

£
\

form “must not be enforced in a way that causes a party to lose any right because of a
nonwillful failure to comply.” Fed. R. Civ. P. 83(a)(2).
But Johnson’s combined motion for an evidentiary hearing with his objection to a
magistrate order into a single pleading does not qualify as a nonwillful defect in form. In
Dunford v. Young, a pro se litigant failed to respond to the defendant’s motion to dismiss
within the 15-day timeframe required by Local Civil Rule 7.1(B). We neither excused
this mistake nor characterized this as a nonwillful failure to comply. 166 F.3d 346 (10th
Cir. 1998) (unpublished). And in Georgacarakos v. Watts, we found the district court did
not abuse its discretion in dismissing a case when the pro se litigant failed to use the
proper forms as required by a local rule. 368 F. App’x 917, 918-19 (10th Cir. 2010)
(unpublished).
Here, Johnson improperly combined his motions into a single pleading contrary to
Local Civil Rule 7.1(b). Although he is proceeding pro se, he “must follow the same
[local district court] rules of procedure that govern other litigants.” Green v. Dorrell, 969
F.2d 915, 917 (10th Cir. 1992). As such, the district court’s denial of the motion for an
evidentiary hearing is not an abuse of discretion.
C. Denial of Johnson’s Motion for Default Judgment
Johnson’s second procedural argument is that the district court improperly denied
his Motion for Default Judgment and Motion for Confession of Judgment against Marlar.
We review the district court’s denial of a motion for default judgment for an abuse of
discretion. See Ashby v. McKenna, 331 F.3d 1148, 1152 (10th Cir. 2003). The district
court denied Johnson’s motions due to improper service of Marlar. ROA Vol. 1 at 4.
8

/ .

'

h *

On appeal, Johnson asserts service was proper because the officer within the OSP
mail room is authorized to receive service on behalf of Marlar. Therefore, Johnson
believes this employee acted as an agent for Marlar. Aplt. Br. at 18-21. Because
Johnson is suing Marlar in both his individual and official capacity, we must examine the
method of service in both capacities.
In Marlar’s individual capacity, service by mail may only be accomplished by
“mailing a copy of the summons and petition by certified mail, return receipt requested
and delivery restricted to the addressee.” Okla. Stat. Ann. tit. 12, § 2004(C)(2)(b) (2019).
Acceptance of service by mail by “a person who is fifteen (15) years of age or older who
resides at the defendant’s dwelling house or usual place of abode shall constitute
acceptance or refusal by the party addressed.” Id. at § 2004(C)(2)(c). Although officers
working within the mailroom may satisfy the age requirement, the OSP is not Marlar’s
usual place of abode. As such, the district court’s, finding of improper service on Marlar
in his individual capacity is not an abuse of discretion.
The process for serving Marlar in his official capacity is the same as that against
the state. According to Oklahoma state law, service upon a state is accomplished “by
delivering a copy of the summons and of the petition to the officer or individual
designated by specific statute” or to “the chief executive officer or a clerk, secretary, or
other official whose duty it is to maintain the official records of the organization.” Id. at
§ 2004(C)(l)(c)(5); see also Fed. R. Civ. P. 4(j)(2).
Mail room attendants are not statutorily authorized to act as agents for proper
service nor are they charged with maintaining the official records of the organization. In
9

d •

r' •

Brown v. Fisher, a pro se plaintiff filed a motion for default judgment on the grounds the
defendant did not file a timely response to the complaint. 251 F. App’x 527, 533 (10th
Cir. 2007) (unpublished). Relying on Fed. R. Civ. P. 6(b), the defendant requested an
extension of time to file, because the plaintiff improperly served an administrative
assistant within the Kansas Highway Patrol’s office. See Fed. R. Civ. P. 6(b) (permitting
an extension of time “if the party failed to act because of excusable neglect”). We
accepted the defendant’s argument that the delay resulting from the improper service
constituted “excusable neglect.” Brown, 251 F. App’x at 533.
This is a situation functionally identical to Brown. Here, a mail room attendant,
instead of an administrative assistant, received Marlar’s mail. Although we recognize
Johnson properly mailed the summons to the best of his knowledge, the fact remains that
the mail room attendant is not authorized to accept restricted delivery mail on Marlar’s
behalf. As a result, the district court’s denial of these Motions is not an abuse of
discretion due to excusable neglect on Marlar’s part.
D. Allegation of Fraud by Opposing Counsel
Finally, Johnson alleges that opposing counsel “coached and encouraged” Marlar
to file a falsified affidavit concerning his failure to respond due to improper service.
Aplt. Br. at 27. There is no evidence to support this allegation in the record, and it is
therefore dismissed as frivolous.
III.
Johnson concedes that he waived his request to see a hematologist due to his
failure to satisfy the exhaustion requirements under the PLRA. Similarly, because he
10

>. *

» 4* '

received a hemorrhoidectomy, his injunctive claim is moot. Johnson’s remaining
deliberate indifference claim fails to overcome the required evidentiary hurdle. We also
find the district court’s denial of an evidentiary hearing and default judgment is not an
abuse of discretion. Finally, Johnson’s remaining allegation of fraud is purely
conclusory. Accordingly, the district court did not err in granting summary judgment.
We therefore AFFIRM.
Entered for the Court
Allison FI. Eid
Circuit Judge

11

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF OKLAHOMA
DEXTER LEEMON JOHNSON,

)

Plaintiff,
v.

JOHN MARLAR,
Defendant.

)
)
)
.)
)
)
)
)

No. CIV 16-440-JHP-SPS

OPINION AND ORDER
This action is before the Court on Defendant’s motion for summary judgment. The Court
has before it for consideration Plaintiff’s complaint (Doc. 1), Defendant’s motion (Doc. 42), a
special report prepared by the Oklahoma Department of Corrections (DOC) at the direction of the
Court, in accordance with Martinez v. Aaron, 570 F.2d 317 (10th Cir. 1978) (Doc. 41), and
Plaintiff’s response to Defendant’s motion (Dkt. 44).
Plaintiff, an inmate in the custody of the DOC who is incarcerated at the Oklahoma State
Penitentiary (OSP) in McAlester, Oklahoma, brings this action under the authority of 42 U.S.C. §
1983, seeking relief for alleged constitutional violations during his incarceration at that facility.
Plaintiff has been housed at OSP since 2004. Special Report (Doc. 41), Attachement 1. The
defendant is John Marlar, a physician at OSP.
Standard of Review
The Court has carefully reviewed the record and construes Plaintiff’s pleadings liberally.
Haines v. Kerner, 404 U.S. 519 (1972). This relaxed standard, however, does not relieve his

U

B
i.

90

burden of alleging sufficient facts on which a recognized legal claim could be based. Hall v.
Bellmon, 935 F.2d 1106,1110 (10th Cir. 1991).
Summary judgment is appropriate when “there is no genuine dispute as to any material fact
and the movant is entitled to a judgment as a matter of law.” Fed. R. Civ. P. 56(a). A dispute is
genuine if the evidence is such that “a reasonable jury could return a verdict for the nonmoving
party.” Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986). A fact is material if it “might
affect the outcome of the suit under the governing law.” Id. In making this determination, “[t]he
evidence of the non-movant is to be believed, and all justifiable inferences are to be drawn in his
favor.” Id. at 255. However, a party opposing a motion for summary judgment may not simply
allege there are disputed issues of fact; rather, the party must support its assertions by citing to the
record or by showing the moving party cannot produce admissible evidence to support the fact.
Fed. R. Civ. P. 56(c). Thus, the inquiry for this Court is “whether the evidence presents a sufficient
disagreement to require submission to a jury or whether it is so one-sided that one party must
prevail as a matter of law.” Anderson, All U.S. at 251-52.
STATEMENT OF THE CASE
Plaintiff Dexter Johnson is currently in the custody of the Oklahoma Department of
Corrections (ODOC) where he is serving a 150 year sentence for shooting with intent to kill.
Johnson also has a pending murder conviction in the State of California. Special Report
(Doc. 41), Attachment 1. Plaintiff commenced the instant action against Dr. Marlar on October
16,2016. (Doc. 1). In his Complaint, Plaintiff alleges, that Dr. Marlar’s failure to treat his bleeding
hemorrhoids and anemia nearly cost him his life in early 2016. However, Plaintiffs deliberate
indifference claim fails as Dr. Marlar’s treatment of Plaintiff was at all times proper. This brief
relies upon the Court-ordered Special Report filed contemporaneously in this action at (Doc. 41).

2,

STATEMENT OF FACTS
Based upon the record the following facts are uncontroverted pursuant to Fed. R. Civ. P.
56.
Exhaustion
1.

On May 11, 2015, Plaintiff submitted a request to staff asking that his hemorrhoids be
examined. Doc. 1, page 241. In response, Plaintiff was informed that he was “scheduled.”
Id. On May 22, 2015, Plaintiff then submitted a related grievance asking that he be sent
to an outside facility to have his hemorrhoids treated. Doc. 1, page 22. On May 30, 2015,
OSP’s correctional health services administrator (CHSA) responded that Plaintiff’s
medical records had been reviewed and discussed with Dr. Marlar, and that an appointment
would be scheduled to assess his condition. Doc. 1, page 21. Plaintiff was also informed
that he would be sent for testing/procedures if warranted. Id.

2.

On June 24, 2015, Plaintiff submitted a Request to Staff asking if he was going to Lindsey
Medical Center for hemorrhoid treatment. Doc. 1, page 25. In response, Plaintiff was
informed that he would be scheduled when OSP medical officials heard from OU. Id.

3.

On July 19, 2015, Plaintiff submitted a Request to Staff to the Chief Medical Officer of the
Department of Corrections, asking that his medical records be reviewed and that he be sent
for hemorrhoid surgery at an outside medical facility. S.R., Attachment 3, pages 32-332.
On August 21, 2015, this RTS was returned unanswered because it was improperly
submitted. Id. at page 34.

1 When referring to page numbers of Plaintiffs Complaint, the court references those assigned by the electronic filing
system.
2 All references to page numbers in the Special Report are to the Bates numbering at the bottom of the Report.

3.

4.

On November 11, 2015, Plaintiff submitted a Request to Staff to OSP’s CHSA asking for
an explanation as to why he had not been sent to an outside medical facility for hemorrhoid
surgery and asking to be scheduled for such services. S.R., Attachment 5, page 40. In
response, Plaintiff was informed that a referral was submitted by Dr. Marlar but not
approved by Dr. Joel McCurdy. Id: On December 6, 2015, Plaintiff then submitted a
related grievance to Medical Services Administrator Buddy Honaker, asking that he be
sent to an outside medical facility for hemorrhoid surgery. Id. at pages 41-42. On January
11,2016, the grievance was returned unanswered because it was improperly submitted. Id.
at page 43.

5.

After commencement of the above-styled litigation, on November 28, 2016, Plaintiff
submitted an “Emergency” Grievance asking that he be examined by a hematologist. S.R.,
Attachment 4, pages 36-37. On January 4, 2017, the grievance was returned unanswered
because it was improperly submitted. Id.
Medical Care

6.

On October 20, 2012, Plaintiff submitted a Request for Health Services (RHS) indicating
that he was suffering from anal bleeding. In response, Plaintiff was informed that he was
scheduled for an appointment. S.R., Attachment 6, page 45.

7.

On October 23, 2012, Plaintiff was diagnosed with hemorrhoids and issued a prescription
for suppositories. Id. at 46.

8.

On February 2, 2013, Plaintiff was seen for hemorrhoids. Id. at 48. He was prescribed
ointments and fiber and encouraged to increase fluid intake. Id. at 49.

4-,

9.

On November 6, 2013, Plaintiff submitted a RHS asking to have his hemorrhoids removed.
In response, he was informed that he was scheduled to be seen and was treated for diarrhea
on the same date. Id. at 50-51.

10.

On November 12, 2013, Plaintiff submitted a RHS complaining of bowel and bladder
issues. In response, he was scheduled for an appointment. Id. at 52-53.

11.

On November 15, 2013, Plaintiff was seen by Dr. Marlar and given an injection of
rocephin. Id. at 54.

12.

On November 18, 2013, Plaintiff was seen by Dr. Marlar and indicated that his
urinary tract infection had improved. Id. at 55.

13.

On March 1, 2015, Plaintiff submitted a request to be examined for anemia. In response,
he was advised that he had been scheduled to see a provider. Id. at 58.

14.

On March 2, 2015, Plaintiff was scheduled for a blood test. Id. at 59.

15.

On March 12, 2015, Plaintiff was examined and his blood was tested. He was also
authorized to receive double portions of food for 30 days. Id. at 60-61.

16.

On April 7, 2015, Plaintiff was seen for hemorrhoids. He was prescribed suppositories,
ointment and fiber and was encouraged to increase fluid intake. Id. at 62-64.

17.

On April 24, 2015, Plaintiff received a periodic physical examination. Id. at 66-67.

18.

On April 27, 2015, Plaintiff’s blood was drawn. Id. at 68-70.

19.

On May 19, 2015, Plaintiff was treated for constipation. Id. at 71.

5.

20.

On June 8,2015, Plaintiff was treated for hemorrhoids and bleeding. Id. at 72. Dr. Marlar
also indicated that he planned to send Plaintiff for a consultation for hemorrhoid banding.
Id.

21.

On June 15, 2015, Plaintiff was prescribed double meal portions. Id. at 73.

22.

On June 30, 2015 Plaintiff was prescribed medical snacks. Id. at 74.

23.

On July 13, 2015 Plaintiff was assessed for double meal portions. Id. at 75.

24.

On September 15, 2015 Plaintiff was prescribed double meal portions. Id. at 77.

25.

On November 12, 2015, Plaintiff was assessed for double meal portions. Id. at 78.

26.

On December 28, 2015, Plaintiff submitted a RHS complaining of dizziness and nausea.
He was informed that he was scheduled for an appointment. Id. at 79-80.

27.

On December 30, 2015, Plaintiff was treated for nausea and diarrhea. Id. at 81-82.

28.

On December 31, 2015, Plaintiff was treated for an upper respiratory infection and
prescribed amoxicillin. Id. at 83-84.
On January 10, 2016, Plaintiff submitted a RHS again complaining of dizziness and
nausea. In response, an appointment was scheduled. Id. at pages 85-86. 96-130. It was
determined that his hemorrhoids were “unlikely to be the source of his severe
anemia/pancytopenia.” Mat 110.

30.

On January 15, 2016, Plaintiff was seen for abdominal pain. Id. at 87-95. He received an
x-ray that indicated constipation. Plaintiff also received lab work on that date. Plaintiff
was prescribed dulcolax, suppositories, fiber and bismuth to treat diarrhea, constipation
and abdominal pain. Id.

31.

On January 16, 2016, Plaintiff was transported to the McAlester Regional Health Center
(MRHC) because his blood tests indicated critically hemoglobin. He was diagnosed with
acute anemia/low hemoglobin, pancytopenia and hemorrhoids. Id. at 111.

32.

On January 17, 2016, Plaintiff was discharged from the MRHC back to the care of the
prison. Id. at 112-114.

33.

On January 19, 2016, Plaintiff was checked at his cell door and indicated that he felt better.
Id. at 133.

34.

On January 21, 2016, Plaintiff received an endoscopy/colonoscopy at Lindsay Municipal
Hospital. Id. at 135-136. He was diagnosed with internal hemorrhoids and ordered to
consume fiber. Id.
On January 25, 2016, Plaintiff submitted a RHS asking why his blood level dropped,
requiring his hospitalization. He was therefore scheduled for an appointment. Id. at 138138.

36.

On January 26, 2016, Plaintiff received an ultrasound of his abdomen. Id. at 140.

37.

On February 3, 2016, Plaintiff had blood drawn for lab work. Id. at 141-143.

38.

On March 2, 2016, Plaintiff had blood drawn for lab work. Id. at 144-146.

39.

On March 9, 2016, Plaintiff had blood drawn for lab work. Id. at 147-149.

40.

On March 24, 2016, Plaintiff had blood drawn for lab work. Id. at 150-152.
On April 13, 2016, Plaintiff was examined and scheduled for hemorrhoid banding at the
University of Oklahoma Medical Center, to occur on April 28, 2016. Id. at 153155.

1.

42.

On April 28,2016, Plaintiff was seen at OU Medical Center. A colonoscopy and a followup were recommended. Id. at 156-158.

43.

On May 17, 2016, Plaintiff was scheduled for a colonoscopy at OU Medical Center, to
occur on June 9, 2016, with a follow-up scheduled for June 30, 2016. Id. at 160161.
Plaintiff was instructed on how to prepare for the colonoscopy. Id. at 160.
On June 8, 2016, Plaintiff’s colonoscopy was cancelled after Plaintiff ate a meal and failed
to comply with the ordered liquid diet and colonoscopy prep. Id. at 162-163.

45.

On June 10, 2016, Plaintiffs colonoscopy was rescheduled, to occur on June 14, 2016. Id.
at 164.
On June 14, 2016, Plaintiff traveled to OU Medical Center for a colonoscopy but it was
cancelled because he had again failed to follow instructions for preparation. Id. at 165166.

47.

On June 25, 2016, Plaintiff submitted a RHS regarding missing medical snacks. He was
informed that the problem had been addressed with the kitchen. Id. at 167-168.

48. '

On June 30, 2016, Plaintiff was seen at OU Medical Center. He was prescribed Mirilax
and a follow up appointment was scheduled for July 14, 2016. Id. at 169-171.

49.

On July 14, 2016, Plaintiff was seen at OU Medical Center. He was prescribed Miralax
and another follow up appointment was scheduled for July 28, 2016. Id. at 172-175.

50.

On July 28, 2016, Plaintiff was seen at OU Medical Center. Blood work was completed
and Plaintiff was scheduled for an examination under anesthesia (EUA) and possible
hemorrhoidectomy, to occur on August 12, 2016. Id. at 176-181.

s.

51.

On August 12, 2016, Plaintiff was seen at OU Medical Center and evaluated in the GI
clinic as a referral from general surgery. Id. at 183-186.

52.

On August 23, 2016. Plaintiff was evaluated by OSP for continued receipt of double meal
portions. Id. at 187.

53.

On September 30, 2016, Plaintiff had his blood drawn for lab work. Id. at 192.

54.

On November 9, 2016, Plaintiff was seen for rectal bleeding and was informed that OSP
was awaiting a surgery appointment. Id. at 195-197. On the same date, OSP confirmed
the surgery had been scheduled for December 1, 2016 at OU Medical Center. Id. at 197.

•^T55.

On October 14, 2016, Plaintiff commenced the instant action. Doc. 1.

56.

On November 30, 2016, Plaintiff had blood drawn for lab work. Id. at 198-199.

57.

On December 1, 2016, Plaintiff was seen at OU Medical Center where it was noted that he
needed to be scheduled for a hemorrhoidectomy. Id. at 200-207.

58.

On December 19, 2016, Plaintiff was evaluated for a medical diet at OSP. Id. at 210.

59.

On January 13, 2017, in response to a request by OSP that Plaintiff’s hemorrhoid surgery
be scheduled, OSP was informed that “it takes a long time to schedule a surgery.” Id. at
212.

60.

On February 13, 2017, Plaintiff was scheduled for a hemorrhoidectomy, to occur on
February 28, 2017 at OU Medical Center. Id. at 213.

61.

On February 28, 2017, Plaintiff had a hemorrhoidectomy at OU Medical Center. Id. at
214-222.

4

PLAINTIFF FAILED TO EXHAUST ADMINISTRATIVE REMEDIES REGARDING
HIS REQUEST FOR TREATMENT BY A HEMATOLOGIST.
Pursuant to the PLRA, “[n]o action shall be brought with respect to prison conditions under
§ 1983 of this title, or any other Federal law, by a prisoner confined in jail, prison, or other
correctional facility until such administrative remedies as are available are exhausted.” 42 U.S.C.
§1997e(a). Thus, a prisoner cannot sue concerning prison conditions without first exhausting all
available administrative remedies. Booth v. Churner, 532 U.S. 731, 733-34 (2001); 42 U.S.C. §
1997e(a). Exhaustion is required for all inmates seeking relief in federal district court regardless
of the type of relief available under the institutional administrative procedure. Woodford v. Ngo,
548 U.S. 81 (2006); Booth, 532 U.S. at 741.
To properly exhaust, the prisoner must comply “with an agency’s deadlines and other
critical procedural rules....” Ngo, 548 U.S. at 90. “Simply presenting a defective or noncomplying
grievance...does not constitute exhaustion of remedies.” Brewer v. Mullin, 130 F.App’x 264, 265
(10th Cir. 2005) (not selected for publication). Prisoners must exhaust remedies, even if doing so
seems futile. Jernigan v. Stuchell, 304 F.3d 1030, 1032 (10th Cir. 2002). Moreover, a prisoner
must timely exhaust each and every step of a prison system’s grievance procedure in full
compliance with the procedure’s requirements; partial compliance is not sufficient. Id. Courts will
only excuse failure to exhaust if prison officials impede the prisoner’s attempts. Little v. Jones,
607 F.3d 1245, 1250 (10th Cir. 2010). Finally, the prisoner must complete the grievance process
or there is no exhaustion of administrative remedies. Id.
ODOC’S Grievance Process
DOC Policy OP-090124, .“Offender Grievance Process,” governs ODOC offender
complaints regarding incidences of prison life. See Special Report, Attachment 2. Further, it
provides the multi-step exhaustion process an offender must satisfy before filing suit. Id.

to.

According to OP-090124(1Y), an offender must first attempt to informally resolve his complaint
by talking with the appropriate staff member. See OP-090124(IV). If unsuccessful, then the
offender must submit a Request to Staff (“RTS”) to the appropriate staff member. Id. at (IV)(C).
If the offender’s complaint remains unresolved, the offender may begin the formal grievance
procedure by submitting a Grievance to the Reviewing Authority. Id. at (V). If the complaint is
medical related, the offender must submit the Grievance to the facility Correctional Health
Services Administrator (“CHSA”). Id. at (V)(B)(1). Grievances that are an emergency or of a
sensitive nature can be submitted directly to the Reviewing Authority without informal resolution.
This is appropriate where the inmate faces a substantial risk of personal injury, sexual harm or
other irreparable harm. Id. at (VIII). If a grievance response fails to resolve the issue, the inmate
should appeal to the Administrative Review Authority (“ARA”), or if the complaint is medical
related, to the Chief Medical Officer. Id. at (VII). Only after all of these steps are taken has the
grievance process been exhausted.
Hematologist Grievance
Plaintiff Dexter Johnson’s deliberate indifference claim and request for injunctive relief
stems, in part, from Defendant’s alleged failure to refer him to a hematologist. Doc. 1, pages 6-7
and 19. However, Plaintiff did not exhaust his available administrative remedies regarding his
request to be treated by a hematologist. Plaintiff filed a number of administrative requests for
hemorrhoid surgery. S.R., Attachments 3-5. However, only one of those requests demanded
treatment by a hematologist, and it was submitted on November 28, 2016 - after commencement
of this action. S.R., Attachment 4, pages 36-37. Moreover, the grievance was returned unanswered
as it failed to comply with the grievance policy. Id., page 38. This unexhausted, post-litigation
grievance fails to satisfy the prelitigation exhaustion requirements set forth in the Prison Litigation

I \,

Reform Act.

Therefore, this Court finds that Plaintiff has failed to exhaust administrative

remedies regarding his request for treatment by a hematologist, and the related deliberate
indifference claims and request for injunctive relief is denied.
PLAINTIFF’S REQUEST FOR AN INJUNCTION REQUIRING
HEMORRHOID SURGERY AND MEDICATION IS MOOT.
In his Complaint, Plaintiff requests that Defendant be ordered to provide hemorrhoid
surgery and prescriptions for vitamins, iron pills and stool softeners. Doc. 1, pages 6-7. However,
Plaintiff received hemorrhoid surgery on February 28, 2017. S.R., Attachment 6, pages 214-222.
He has also consistently received prescriptions for iron pills, prenatal vitamins, stool softeners and
suppositories. S.R, Attachment 7. Therefore, Plaintiffs requests for injunctive relief is denied as
moot. Jordan v. Sosa, 654 F.3d 1012,1027-28 (10th Cir. 2011) and Rizzo y. Goode, 423 U.S. 362,
372 (1976).

(A claim is moot when no reasonable expectation exists that the alleged violation

will recur and interim events have eliminated the effects of the alleged violation. Committee for
the First Amendment v. Campbell, 962 F.2d 1517, 1524 (10th Cir. 1992). Injunctive relief is
improper when there is no continuing violation of federal law. Green v. Mansour, 474 U.S. 64, 73
(1985). See also, City of Los Angeles v. Lyons, 461 U.S. 95,111-13 (1983).)
PLAINTIFF’S CLAIM OF DELIBERATE INDIFFERENCE
Under the Eighth Amendment, “prison officials must ensure that inmates receive adequate
food, clothing, shelter, and medical care, and must ‘take reasonable measures to guarantee the
safety of the inmates.’” Farmer v. Brennan, 511 U.S. 825, 832 (1994) (quoting Hudson v. Palmer,
468 U.S. 517, 526-27 (1984)). See also Barney v. Pulsipher, 143 F.3d 1299,1310 (10thCir.l998)
(“Prison officials are required to provide humane conditions of confinement by ensuring inmates
receive the basic necessities of adequate food, clothing, shelter, and medical care and by taking
reasonable measures to guarantee the inmates’ safety.”).

I 3k

To establish deliberate indifference

based on prison officials failing to attend to an inmate’s serious medical needs, a § 1983 plaintiff
must satisfy an objective and subjective component. See Mata v. Saiz, 427 F.3d 745,751-752 (10th
Cir. 2005).
First, under the objective component, the deprivation must be sufficiently serious; a prison
official’s act or omission must result in the denial of the minimal civilized measure of life’s
necessities. Farmer v. Brennan, 511 U.S. at 834. Second, under the subjective component, the
prison official must have acted with a sufficiently culpable state of mind, namely “deliberate
indifference to inmate health or safety.” Id. In this regard, deliberate indifference is established
only when a prison official knows that an inmate faces a substantial risk of serious harm and
disregards that risk by failing to take reasonable measures to abate that harm. Id. at 837-38. For
instance, the intentional denial or delay of access to medical care or intentional interference with
treatment may constitute deliberate indifference. Estelle v. Gamble, 429 U.S. 97,104-105 (1976).
However, a mere difference of opinion over the adequacy of medical treatment provided cannot
provide the basis for an Eighth Amendment claim. El’Amin v. Pearce, 750 F.2d 829 (10th Cir.
1984); Jones v. McCracken, 562 F.2d 22 (10th Cir. 1977); Smart v. Villar, 547 F.2d 112 (10th Cir.
1976).

See also Johnson v. Stephan, 6 F.3d 691, 692 (10th Cir. 1993) (holding that any

disagreement regarding a prisoner’s diagnosis does not support a claim of cruel and unusual
punishment). Moreover, the negligent diagnosis or treatment of a medical condition or the
accidental or inadvertent failure to provide medical care does not establish a medical wrong under
the Eighth Amendment. Estelle, 429 U.S. at 105-106. See also Daniels v. Gilbreath, 668 F.2d 477,
487 (10th Cir. 1982) (holding that mere exposure to “an unreasonable risk of harm or simple
negligence” does not constitute deliberate indifference).

13.

The constitution “does not mandate comfortable prisons.” Rhodes v. Chapman, 452 U.S.
337, 349 (1981). The conditions may be restrictive and even harsh. Id. at 347. To prove an
unconstitutional deprivation, “a prisoner must show that conditions were more than uncomfortable,
and indeed rose to the level of conditions posing a substantial risk of serious harm to inmate health
or safety.” DeSpain v. Uphoff, 264 F.3d 965, 973 (10th Cir. 2001) (internal quotation omitted).
Whether there is a substantial risk of serious harm depends on “the particular' facts of each
situation; the circumstances, nature, and duration of the challenged conditions must be carefully
considered.” Id. at 974 (quotation marks and citations omitted). “[T]he length of exposure to the
conditions is often of prime importance.” Id. See also Mitchell v. Maynard, 80 F.3d 1433, 1443
(10th Cir. 1996). Furthermore, the measures employed to alleviate the condition must be taken into
account. See Hutto v. Finney, 437 U.S. 678, 686-87 (1978) and McBride v. Deer, 240 F.3d 1287,
1291 (10th Cir. 2001).
In this action, Plaintiff claims Dr. Marlar was deliberately indifferent to his chronic medical
needs stemming from hemorrhoids and anemia. Yet, the record in this matter irrefutably indicates
that Plaintiff received constant treatment for his hemorrhoids, and there is no indication that Dr.
Marlar ever denied or disregarded a request for care. Specifically, Plaintiff received some form of
medical treatment related to his hemorrhoids (examination, evaluation, blood work, etc.) on the
following dates:
October 23, 2012; February 2, 2013; November 15, 2013; November 18, 2013; March 2,
2015; March 12, 2015; April 7, 2015; April 24, 2015; April 27, 2015; May 19, 2015; June
8, 2015; December 30, 2015; December 31, 2015; January 15, 2016; January 16, 2016;
January 21, 2016; January 26, 2016; February 3, 2016; March 2, 2016; March 9, 2016;
March 24, 2016; April 13, 2016; April 26, 2016; June 14, 2016; June 30, 2016; July 14,
2016; July 28, 2016; August 12,2016; September 30,2016; November 9, 2016; November
30, 2016; December 1, 2016; and February 28, 2017.
See generally S.R., Attachment 6. See also Statement of Facts, supra, atffl 8-63.

Contrary to Plaintiffs claims of delayed or denied medical care, Dr. Marlar did arrange for
Plaintiffs hemorrhoids to be treated and ultimately removed at the University of Oklahoma
Medical Center (OUMC). Plaintiff was seen at OUMC on April 26,2016; June 14,2016; June 30,
2016; July 14, 2016; July 28, 2016; August 12, 2016; December 1, 2016; and February 28, 2017.
S.R., Attachment 6, pages 156-158, 165-166, 170-171, 172-175, 183186, 200-207 and 214-222.
Beyond Plaintiff’s allegations, there is no evidence that Dr. Marlar delayed or interfered with OU’s
scheduling of Plaintiff’s hemorrhoid surgery.

Additionally, Plaintiff’s prescription records

indicate that, beginning in 2012, he began receiving rectal suppositories (anusol and qualitest),
colace, iron pills, lactulose, metamucil and milk of magnesia for his hemorrhoids.

S.R.,

Attachment 7. Thus, any claim that Dr. Marlar knew of and disregarded Plaintiff s serious medical
condition is without merit.
In his Complaint, Plaintiff claims that Dr. Marlar’s refusal to treat his bleeding hemorrhoids
caused him to nearly die of anemia and ultimately resulted in his hospitalization at McAlester
Regional Health Center (MRHC) in January of 2016. However, Dr. Youlette Louis of MRHC
notably found that Plaintiffs hemorrhoids were “[u]nlikely to be the source of his severe
anemia/pancytopenia.”

S.R., Attachment 6, page 110 (emphasis added). In fact, Plaintiff

reported a “history of anemia as a little boy... .” Id. at 107. Thus, Plaintiff’s anemia does not
appear to be tied to his hemorrhoids or Dr. Marlar’s alleged lack of medical care. Therefore,
Plaintiff has failed to establish any causal connection between Dr. Marlar and any constitutional
violation. Specifically, in order to establish a claim for an Eighth Amendment violation, a causal,
but-for relationship must be shown between defendant’s conduct and plaintiff’s constitutional
deprivation. Daniels v. Gilbreath, 668 F.2d at 477; Byers v. City of Albuquerque, 150 F.3d 1271
(10th Cir. 1998). In fact, causation must be established before liability can attach. Lee v. Town of

15.

Estes Park, 820 F.2d 1112, 1116 n.3 (10th Cir. 1987). Although there is a record that Plaintiff
complained to Dr. Marlar of feeling anemic in March of 2015, he was given a blood test and extra
food. Id. at pages 58-60. And in the weeks that followed his initial complaint of anemia, Plaintiff
was examined and/or had his blood tested by DOC medical staff repeatedly prior to his
hospitalization. See Statement of Facts, H 15-32. While there does not appear to have been a
specific finding of anemia prior to Plaintiff’s hospitalization, even a negligent diagnosis, especially
in the context of Plaintiff’s well-documented and ongoing treatment, does not constitute an Eighth
Amendment violation. Estelle v. Gamble, 429 U.S. 97,105-106 (1976).
In sum, at no time was Plaintiff denied medical treatment for his hemorrhoids, nor is there
any evidence that failure to treat Plaintiff’s hemorrhoids caused his hospitalization for anemia.
Plaintiffs differing opinion as to what his treatment should have been is insufficient to support his
claim for an Eighth Amendment violation. Ramos v. Lamm, 639 F.2d 559, 575 (10th Cir. 1980).
See also Johnson v. Stephan, 6 F.3d 691, 692 (10th Cir. 1993). Dr. Marlar is therefore granted
summary judgment as to Plaintiff’s deliberate indifference claim. See Ledoux v. Davies, 961 F.2d
1536,1537 (10th Cir. 1992), which held that no claim of constitutional dimension is stated where
a prisoner challenges only matters of medical judgment or otherwise expresses a mere difference
of opinion concerning the appropriate course of treatment.
DR. MARLAR IS ENTITLED TO QUALIFIED IMMUNITY.
Once a defendant asserts the defense of qualified immunity, the burden shifts to the plaintiff
to demonstrate that (1) the defendant violated one of his constitutional rights, and (2) the right in
question was clearly established at the time of the allegedly unlawful activity such that “every
reasonable official would have understood that what he [was] doing” violated the law. Morris v.
Noe, 672 F.3d 1185,1191 (10th Cir. 2012).

I(p.

This Court also finds that Dr. Marlar is entitled to qualified immunity. A public official or
employee is entitled to qualified immunity unless “clearly established” federal rights of which a
reasonable person would have known are shown to have been violated. Hunter v. Bryant, 502 U.S.
224, 227 (1991). “Clearly established” is predicated on a finding that in light of pre-existing law
the unlawfulness is apparent. Anderson v. Creighton, 483 U.S. 635, 640 (1987).

Qualified

immunity is an entitlement not to stand trial or face the burdens of litigation. It is an immunity
from suit rather than a mere defense to liability. Mitchell v. Forsyth, 472 U.S. 511, 527 (1985). It
is effectively lost if a case is erroneously permitted to proceed to trial. Hannula v. City of Blakely,
907 F.2d 129,130 (10th Cir. 1990).
Whether qualified immunity exists is a question of law to be decided by the trial court.
England v. Hendricks, 880 F.2d 281, 283 (10th Cir. 1989). “To determine whether a plaintiff can
overcome the qualified immunity defense, ‘first we determine whether the plaintiff has asserted a
violation of a constitutional or statutory right, and then we decide whether that right was clearly
established such that a reasonable person in the defendant’s position would have known that [his]
conduct violated that right.’” Roska ex rel. Roska v. Peterson, 328 F.3d 1230, 1239 (10th Cir.
2003) (quoting Garramone v. Roma, 94 F.3d 1446, 1449 (10th Cir. 1996)).
“[I]n order for the law to be clearly established, there must be a Supreme Court or Tenth
Circuit decision on point, or the clearly established weight of authority from other courts must
have found the law to be as the plaintiff maintains.” Medina v. City and County of Denver, 960
F.2d 1493,1498 (10th Cir. 1992). Accord, Roska, 328 F.3d at 1248. The contours of the invoked
right must be sufficiently clear such that objectively reasonable state officers would understand
that what they are doing violates that right. Roska, 328 F.3d at 1247 (citing Anderson v. Creighton,
483 U.S. 635 (1987)). “[T]he touchstone of [this] inquiry is whether the officers [were] on notice

n.

c,

l

[that] their conduct [was] unlawful.” Id. at 1248. (citations and quotations omitted). Thus, if the
plaintiff has alleged a constitutional violation and has met his burden to establish that the law on
the subject is clearly established, plaintiff must further show that a reasonable official would have
known that his actions would violate clearly established law. In considering the “reasonable state
actor,” we must keep in mind that qualified immunity precludes the imposition of liability for ‘all
but the plainly incompetent or those who knowingly violate the law.’ Malley v. Briggs, 475 U.S.
335, 341 (1986) (emphasis added). Where “officers of reasonable competence could disagree on
th[e] issue, immunity should be recognized.” Id. at 341. Id. at 1251.
In this action, Plaintiff cannot meet his burden of establishing that Defendant violated his
constitutional rights by failing to treat his anemia and hemorrhoids. In the alternative, Plaintiff
cannot demonstrate that the law is so clearly established that the Dr. Marlar’s well-documented
treatment of his hemorrhoids was unconstitutional so that a reasonable person in the
Defendant’sposition would have known that his conduct violated the Eighth Amendment. For the
foregoing reasons, Defendant Dr. Marlar is entitled to qualified immunity.
Accordingly, Defendant’s Motion for Summary Judgment is granted, and all remaining
pending motions are denied as moot.
IT IS SO ORDERED this 19th day of April, 2019.

/

(h

/

ji
J&mes H. Payne
^united States District Judge
Eastern District of Oklahoma

(2.

tv
!

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

May 11,2020
Christopher M. Wolpert
Clerk of Court

DEXTER LEEMON JOHNSON,
Plaintiff - Appellant,
v.

No. 19-7023
(D.C. No. 6:16-CV-00440-JHP-SPS)
(E.D. Okla.)

JOHN MARLAR,
Defendant - Appellee.

ORDER
Before LUCERO, PHILLIPS, and EID, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

C

y>

r^IME-Version: 1.0 From:CM-ECFRetMail_OKED@oked.uscourts.gov
To:CM-ECFLive_OKED@oked.uscourts.gov Bcc:
Message-Id:<909706@oked.uscourts.gov>Subject:Activity in Case 6:16 cv-00440-JHP-SPS Joh nson
v. Marlar Ruling on Motion to Stay Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents Bled electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing. However, if the referenced document is a transcript, the
free copy and 30 page limit do not apply.
U.S. District Court
Eastern District of Oklahoma
Notice of Electronic Filing
The following transaction was entered on 7/26/2017 at 3:32 PM CDT and filed on 7/26/2017
Case Name:

Johnson v. Marlar

Case Number:

6:16-cv-00440-JHP-SPS

Filer:
Document Number:

25(No document attached)

Docket Text:
MINUTE ORDER by Magistrate Judge Steven P. Shreder : Denying [8] plaintiffs motion for
order requiring special report. Plaintiff has not yet served the defendant, (acg, Deputy Clerk)
6:16-cv-00440-JHP-SPS Notice has been electronically mailed to:
6:16-cv-00440-JHP-SPS Notice has been delivered by other means to:
Dexter Leemon Johnson
244661
Oklahoma State Penitentiary
PO Box 97
McAlester, OK 74502-0097
John Marlar
1301 N. West Street
McAlester, OK 74502

U

D

o')

MIME-Veision: 1.0 From:CM-ECFRetMail_0 KED@oked.uscourts.gov
To:CM-ECFLive_OKED@oked.uscourts.gov Bcc:
Message-Id:<919470@oked.uscourts.gov>Subject:Activity in Case 6:16-cv-00440-JHP-SPS Johnson
v. Marlar Ruling on Motion to Stay Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT
RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents Died electronically, if receipt is required by law or directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this Drst viewing. However, if the referenced document is a transcript, the
free copy and 30 page limit do not apply.
U.S. District Court
Eastern District of Oklahoma
Notice of Electronic Filing
The following transaction was entered on 9/14/2017 at 1:17 PM CDT and filed on 9/14/2017
Case Name:

Johnson v. Marlar

Case Number:

6:16-cv-00440-JHP-SPS

Filer:
Document Number:

38

Docket Text:
ORDER by Magistrate Judge Steven P. Shreder : Granting [34] Motion to Stay Proceedings and
requiring Special Report and striking [35] Motion for Temporary Restraining Order (acg,
Deputy Clerk)
6:16-cv-00440-JHP-SPS Notice has been electronically mailed to:
Kari Y. Hawkins kari.hawkins@oag.ok.gov, Maranda.Whitaker@omes.ok.gov,
Robert.Stewart@omes.ok.gov, becky.sunderland@oag.ok.gov, docket@oag.ok.gov,
shirley.brady@oag.ok.gov
6:16-cv-0Q440-JHP-SPS Notice has been delivered by other means to:
Dexter Leemon Johnson
244661
Oklahoma State Penitentiary
PO Box 97
McAlester, OK 74502-0097
The following document(s) are associated with this transaction:

U

E

P

<

MYME-Version: 1.0 From:CM-ECFRetMail_OKED @oked.uscourts.gov
i
i
To:CM-ECFLive_OKED@ oked.uscourts.gov Bcc:
i
Message-I J:<916993@oked.uscourts.gov>Subject:Activity in Case 6:16-cv-00440-JHP-SPS Johnson
v. Marlar Ruling on Motion for Default Judgment Content-Type: text/html
|
This is an automatic e-mail message generated by the CM/ECF system. Please DC! NOT
RESPOND to this e-mail because the mail box is unattended.
|
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United slates policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law oY directed by
the filer. PACER access fees apply to all other users. To avoid later charges, download a copy of
each document during this first viewing. However, if the referenced document is a transcript, the
free copy and 30 page limit do not apply.
I
U.S. District Court

i

Eastern District of Oklahoma
Notice of Electronic Filing
The following transaction was entered on 8/31/2017 at 4:01 PM CDT and filed on 8/3 72017
Case Name:

Johnson v. Marlar

Case Number:

6:16-cv-00440-JHP-SPS

Filer:
Document Number:

33(No document attached)

Docket Text:
AMENDED MINUTE ORDER by Magistrate Judge Steven P. Shreder : Plaintiff’s Motions for
Default Judgment [14] [19] and Motion for confession of judgment [21] against John Marlar are
denied because Defendant Marlar has not been properly served. See Fed.R.Civ.pj 4(e)(1) and 12
O.S. § 2004(C)(2)(b). Defendant Marlar is hereby given fourteen (14) days to file an answer to
j
Plaintiff’s Complaint, (acg, Deputy Clerk)
6:16-cv-00440-JHP-SPS Notice has been electronically mailed to:
Kari Y. Hawkins kari.hawkins@oag.ok.gov, Maranda.Whitaker@omes.ok.gov,
Robert.Stewart@omes.ok.gov, becky.sunderland@oag.ok.gov, docket@oag.ok.gov,
shirley.brady@oag.ok.gov
6:16-cv-00440-JHP-SPS Notice has been delivered by other means to:
Dexter Leemon Johnson
244661
Oklahoma State Penitentiary
PO Box 97
McAlester, OK 74502-0097

P

0)

*
|
j
i
j
I
j
|
!

